                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A04060041
                                                                                11      Page 1 of 1




     June 17,2005

     ~ o m ~ l a i n a n t challenge
                           s'        the propriety of NSF's policy and practice prohibiting non-Federal
     employee Intergovernmental Personnel Act (IPA)~Program participants from any type of
     employment at NSF following their IPA assignments. This prohibition, commonly referred to as the
     12-month rule, is embodied in NSF's Personnel ~ a n u a and    l ~ in IPA Agreements entered into
     between NSF and participating institutions.

     We reviewed the allegations and analyzed relevant law, regulation and OPM guidance to determine
     whether the 12-month rule violated merit system principles. We requested a formal opinion from
     OPM regarding same. We informed OPM that we would consider the absence of a formal opinion
     as tantamount to a conclusion by OPM that NSF's 12-month rule was acceptable and did not violate
     merit system principles. We have not received an opinion from OPM as of this date.

     Accordingly, this case is closed.




     1
         Redacted
         5 U.S.C. $ 3371 et seq
         Relevant sections of the Personnel Manual are Sections 62 1,642,650.
